Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL




       MEDICARE COMPLIANCE
            REVIEW OF
     SUTTER MEDICAL CENTER,
          SACRAMENTO




  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                     Brian P. Ritchie
                                               Assistant Inspector General

                                                        April 2014
                                                      A-09-13-02024
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                                     EXECUTIVE SUMMARY

 Sutter Medical Center, Sacramento, did not fully comply with Medicare requirements
 for billing inpatient and outpatient services, resulting in overpayments of approximately
 $1 million over more than 3 years.

WHY WE DID THIS REVIEW

This review is part of a series of hospital compliance reviews. Using computer matching, data
mining, and data analysis techniques, we identified hospital claims that were at risk for
noncompliance with Medicare billing requirements. For calendar year (CY) 2012, Medicare
paid hospitals $148 billion, which represented 43 percent of all fee-for-service payments;
therefore, the Office of Inspector General must provide continual and adequate oversight of
Medicare payments to hospitals.

Our objective was to determine whether Sutter Medical Center, Sacramento (the Hospital),
complied with Medicare requirements for billing inpatient and outpatient services on selected
claims.

BACKGROUND

The Centers for Medicare & Medicaid Services (CMS) pays inpatient hospital costs at
predetermined rates for patient discharges. The rates vary according to the diagnosis-related
group (DRG) to which a beneficiary’s stay is assigned and the severity level of the patient’s
diagnosis. The DRG payment is, with certain exceptions, intended to be payment in full to the
hospital for all inpatient costs associated with the beneficiary’s stay. CMS pays for hospital
outpatient services on a rate-per-service basis that varies according to the assigned ambulatory
payment classification.

The Hospital is an acute-care hospital located in Sacramento, California. Medicare paid the
Hospital approximately $418 million for 26,975 inpatient and 58,763 outpatient claims for
services provided to beneficiaries during CYs 2010 through 2012.

Our audit covered $2,693,838 in Medicare payments to the Hospital for 182 claims that we
judgmentally selected as potentially at risk for billing errors. These claims consisted of
149 inpatient and 33 outpatient claims. Of the 182 claims, 179 claims had dates of service in
CYs 2010, 2011, or 2012, and 3 claims (involving inpatient short stays and an outpatient surgery
billed with units greater than one) had dates of service in CY 2013.

WHAT WE FOUND

The Hospital complied with Medicare billing requirements for 65 of the 182 inpatient and
outpatient claims we reviewed. However, the Hospital did not fully comply with Medicare
billing requirements for the remaining 117 claims, resulting in overpayments of $1,043,958 for
CYs 2010 through 2012 (115 claims) and CY 2013 (2 claims). Specifically, 98 inpatient claims
had billing errors, resulting in overpayments of $992,272, and 19 outpatient claims had billing


Medicare Compliance Review of Sutter Medical Center, Sacramento (A-09-13-02024)                    i
errors, resulting in overpayments of $51,686. These errors occurred primarily because the
Hospital did not have adequate controls to prevent the incorrect billing of Medicare claims
within the selected risk areas that contained errors.

WHAT WE RECOMMEND

We recommend that the Hospital:

    •   refund to the Medicare contractor $1,043,958, consisting of $992,272 in overpayments
        for the incorrectly billed inpatient claims and $51,686 in overpayments for the incorrectly
        billed outpatient claims, and

    •   strengthen controls to ensure full compliance with Medicare requirements.

HOSPITAL COMMENTS AND OUR RESPONSE

In written comments on our draft report, the Hospital did not concur with two of our findings,
with $768,794 in associated questioned costs (73 claims). The Hospital stated that it was not
given an opportunity to discuss and agree on some cases before they were reported as incorrect
and added that it intended to appeal the majority of the cases through the appropriate CMS
channels. For the other findings, the Hospital provided information on actions that it had taken
or planned to take, including appropriate reimbursement.

After reviewing the Hospital’s comments, we maintain that our findings and recommendations
are valid. We gave the Hospital an opportunity to discuss all claims with us before we sent them
to the independent medical review contractor. We informed the Hospital that it would have an
opportunity to respond further to the CMS action official and that the Hospital maintains its right
to appeal the claims.




Medicare Compliance Review of Sutter Medical Center, Sacramento (A-09-13-02024)                    ii
                                                     TABLE OF CONTENTS


INTRODUCTION .............................................................................................................................1

           Why We Did This Review .....................................................................................................1

           Objective ................................................................................................................................1

           Background ............................................................................................................................1
                 The Medicare Program ..............................................................................................1
                 Hospital Inpatient Prospective Payment System .......................................................1
                 Hospital Outpatient Prospective Payment System .....................................................1
                 Hospital Claims at Risk for Incorrect Billing ............................................................2
                 Medicare Requirements for Hospital Claims and Payments .....................................2
                 Sutter Medical Center, Sacramento ...........................................................................3

           How We Conducted This Review..........................................................................................3

FINDINGS .........................................................................................................................................3

           Billing Errors Associated With Inpatient Claims ..................................................................4
                   Incorrect Billing of Medicare Part A for Beneficiary Stays That Should Have
                     Been Billed as Outpatient or Outpatient With Observation Services .....................4
                   Incorrect Diagnosis-Related Groups ..........................................................................4
                   Manufacturer Credits for Replaced Medical Devices Not Obtained
                     or Reported..............................................................................................................4
                   Incorrect Billing for Patient Discharges That Should Have Been Billed
                     as Transfers .............................................................................................................5
                   Incorrect Billing as a Separate Inpatient Stay ............................................................6

           Billing Errors Associated With Outpatient Claims................................................................6
                   Manufacturer Credits for Replaced Medical Devices Not Reported .........................6
                   Incorrect Billing of Number of Units.........................................................................7
                   Insufficiently Documented Service............................................................................7
                   Incorrect Billing of Medicare Part B for Outpatient Services Provided
                     During Inpatient Stays ............................................................................................7
                   Incorrect Billing of Noncovered Dental Services ......................................................8

RECOMMENDATIONS ...................................................................................................................8

HOSPITAL COMMENTS AND OFFICE OF INSPECTOR GENERAL RESPONSE ..................8

           Hospital Comments................................................................................................................8

           Office of Inspector General Response ...................................................................................9



Medicare Compliance Review of Sutter Medical Center, Sacramento (A-09-13-02024)                                                                  iii
APPENDIXES

        A: Audit Scope and Methodology ........................................................................................10

        B: Results of Review by Risk Area ......................................................................................12

        C: Hospital Comments ..........................................................................................................13




Medicare Compliance Review of Sutter Medical Center, Sacramento (A-09-13-02024)                                                    iv
                                             INTRODUCTION

WHY WE DID THIS REVIEW

This review is part of a series of hospital compliance reviews. Using computer matching, data
mining, and data analysis techniques, we identified hospital claims that were at risk for
noncompliance with Medicare billing requirements. For calendar year (CY) 2012, Medicare
paid hospitals $148 billion, which represented 43 percent of all fee-for-service payments;
therefore, the Office of Inspector General (OIG) must provide continual and adequate oversight
of Medicare payments to hospitals.

OBJECTIVE

Our objective was to determine whether Sutter Medical Center, Sacramento (the Hospital),
complied with Medicare requirements for billing inpatient and outpatient services on selected
claims.

BACKGROUND

The Medicare Program

Medicare Part A provides inpatient hospital insurance benefits and coverage of extended care
services for patients after hospital discharge, and Medicare Part B provides supplementary
medical insurance for medical and other health services, including coverage of hospital
outpatient services. The Centers for Medicare & Medicaid Services (CMS) administers the
Medicare program.

CMS contracts with Medicare contractors to, among other things, process and pay claims
submitted by hospitals.

Hospital Inpatient Prospective Payment System

CMS pays hospital costs at predetermined rates for patient discharges under the inpatient
prospective payment system (IPPS). The rates vary according to the diagnosis-related group
(DRG) to which a beneficiary’s stay is assigned and the severity level of the patient’s diagnosis.
The DRG payment is, with certain exceptions, intended to be payment in full to the hospital for
all inpatient costs associated with the beneficiary’s stay.

Hospital Outpatient Prospective Payment System

CMS implemented an outpatient prospective payment system (OPPS), which is effective for
services furnished on or after August 1, 2000. Under the OPPS, Medicare pays for hospital
outpatient services on a rate-per-service basis that varies according to the assigned ambulatory
payment classification (APC). CMS uses Healthcare Common Procedure Coding System
(HCPCS) codes and descriptors to identify and group the services within each APC group. 1 All

1
 HCPCS codes are used throughout the health care industry to standardize coding for medical procedures, services,
products, and supplies.


Medicare Compliance Review of Sutter Medical Center, Sacramento (A-09-13-02024)                                     1
services and items within an APC group are comparable clinically and require comparable
resources.

Hospital Claims at Risk for Incorrect Billing

Our previous work at other hospitals identified these types of claims at risk for noncompliance:

    •   inpatient short stays,

    •   inpatient and outpatient manufacturer credits for replaced medical devices,

    •   inpatient transfers,

    •   inpatient claims billed with high-severity-level DRG codes,

    •   inpatient same-day discharges and readmissions,

    •   inpatient claims billed for kyphoplasty services,

    •   outpatient claims for injectable drugs,

    •   outpatient surgeries billed with units greater than one,

    •   outpatient claims billed within the DRG payment window,

    •   outpatient claims billed for doxorubicin hydrochloride, and

    •   outpatient dental services.

For the purposes of this report, we refer to these areas at risk for incorrect billing as “risk areas.”
We reviewed these risk areas as part of this review.

Medicare Requirements for Hospital Claims and Payments

Medicare payments may not be made for items or services that “are not reasonable and necessary
for the diagnosis or treatment of illness or injury or to improve the functioning of a malformed
body member” (the Social Security Act (the Act), § 1862(a)(1)(A)). In addition, payments may
not be made to any provider of services or other person without information necessary to
determine the amount due the provider (the Act, § 1833(e)).

Federal regulations state that the provider must furnish to the Medicare contractor sufficient
information to determine whether payment is due and the amount of the payment (42 CFR
§ 424.5(a)(6)).

The Medicare Claims Processing Manual (the Manual) requires providers to complete claims
accurately so that Medicare contractors may process them correctly and promptly (Pub. No.


Medicare Compliance Review of Sutter Medical Center, Sacramento (A-09-13-02024)                       2
100-04, chapter 1, § 80.3.2.2). The Manual states that providers must use HCPCS codes for
most outpatient services (chapter 23, § 20.3).

Sutter Medical Center, Sacramento

The Hospital is an acute-care hospital located in Sacramento, California. Medicare paid the
Hospital approximately $418 million for 26,975 inpatient and 58,763 outpatient claims for
services provided to beneficiaries during CYs 2010 through 2012. 2

HOW WE CONDUCTED THIS REVIEW

Our audit covered $2,693,838 in Medicare payments to the Hospital for 182 claims that we
judgmentally selected as potentially at risk for billing errors. These claims consisted of
149 inpatient and 33 outpatient claims. Of the 182 claims, 179 claims had dates of service in
CYs 2010, 2011, or 2012, and 3 claims (in areas with a higher risk of billing errors, i.e., inpatient
short stays and an outpatient surgery billed with units greater than one) had dates of service in
CY 2013. We focused our review on the risk areas that we had identified as a result of prior OIG
reviews at other hospitals. We evaluated compliance with selected billing requirements and
subjected 97 inpatient claims to focused medical review to determine whether the services were
medically necessary. This report focuses on selected risk areas and does not represent an overall
assessment of all claims submitted by the Hospital for Medicare reimbursement.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

See Appendix A for the details of our audit scope and methodology.

                                                  FINDINGS

The Hospital complied with Medicare billing requirements for 65 of the 182 inpatient and
outpatient claims we reviewed. However, the Hospital did not fully comply with Medicare
billing requirements for the remaining 117 claims, resulting in overpayments of $1,043,958 for
CYs 2010 through 2012 (115 claims) and CY 2013 (2 claims). Specifically, 98 inpatient claims
had billing errors, resulting in overpayments of $992,272, and 19 outpatient claims had billing
errors, resulting in overpayments of $51,686. These errors occurred primarily because the
Hospital did not have adequate controls to prevent the incorrect billing of Medicare claims
within the selected risk areas that contained errors. For the results of our review by risk area, see
Appendix B.




2
    These data came from CMS’s National Claims History file.


Medicare Compliance Review of Sutter Medical Center, Sacramento (A-09-13-02024)                     3
BILLING ERRORS ASSOCIATED WITH INPATIENT CLAIMS

The Hospital incorrectly billed Medicare for 98 of 149 selected inpatient claims, which resulted
in overpayments of $992,272.

Incorrect Billing of Medicare Part A for Beneficiary Stays That Should Have Been Billed
as Outpatient or Outpatient With Observation Services

Medicare payments may not be made for items or services that “are not reasonable and necessary
for the diagnosis or treatment of illness or injury or to improve the functioning of a malformed
body member” (the Act, § 1862(a)(1)(A)).

For 78 of 149 selected inpatient claims, the Hospital incorrectly billed Medicare Part A for
beneficiary stays that it should have billed as outpatient or outpatient with observation services.
(Of the 78 claims, 77 had dates of service in CYs 2010, 2011, or 2012, and 1 claim had a date of
service in CY 2013.) For 14 of the 78 claims, the Hospital stated that the errors were the result
of case management staff not following established procedures. The Hospital also stated that
high turnover of case management staff resulted in lower staff expertise and competency.
However, the Hospital disagreed that the remaining 64 claims were in error. As a result of the
78 errors, the Hospital received overpayments of $781,420. 3

Incorrect Diagnosis-Related Groups

Medicare payments may not be made for items or services that “are not reasonable and necessary
for the diagnosis or treatment of illness or injury or to improve the functioning of a malformed
body member” (the Act, § 1862(a)(1)(A)). The Manual states: “In order to be processed
correctly and promptly, a bill must be completed accurately” (chapter 1, § 80.3.2.2).

For 9 of 149 selected inpatient claims, the Hospital billed Medicare with incorrect DRGs. For
these claims, to determine the DRG, the Hospital used a diagnosis code that was incorrect or
unsupported by the medical record. For six of the nine claims, the Hospital stated that human
error caused the incorrect diagnosis code to be selected. However, the Hospital disagreed that
the remaining three claims were in error. As a result of the nine errors, the Hospital received
overpayments of $99,065.

Manufacturer Credits for Replaced Medical Devices Not Obtained or Reported

Federal regulations require a reduction in the IPPS payment for the replacement of an implanted
device if (1) the device is replaced without cost to the provider, (2) the provider receives full
credit for the cost of the device, or (3) the provider receives a credit equal to 50 percent or more
of the device cost (42 CFR § 412.89(a)). The Manual states that to correctly bill for a

3
 The Hospital may be able to bill Medicare Part B for all services (except for services that specifically require an
outpatient status) that would have been reasonable and necessary had the beneficiary been treated as a hospital
outpatient rather than admitted as an inpatient. We were unable to determine the effect that billing Medicare Part B
would have on the overpayment amount because these services had not been billed and adjudicated by the Medicare
administrative contractor before issuance of our report.


Medicare Compliance Review of Sutter Medical Center, Sacramento (A-09-13-02024)                                    4
replacement device that was provided with a credit, hospitals must code Medicare claims with a
combination of condition code 49 or 50 (which identifies the replacement device) and value code
FD (which identifies the amount of the credit or cost reduction received by the hospital for the
replaced device) (chapter 3, § 100.8).

Federal regulations state: “All payments to providers of services must be based on the
reasonable cost of services …” (42 CFR § 413.9). The CMS Provider Reimbursement Manual
(PRM), Pub. No. 15-1, reinforces these requirements in additional detail. 4

For 7 of 149 selected inpatient claims, the Hospital either (1) did not obtain a credit for a
replaced medical device for which a credit was available under the terms of the manufacturer’s
warranty (5 claims) or (2) received a reportable medical device credit from a manufacturer but
did not adjust its inpatient claims with the proper condition and value codes to reduce payment as
required (2 claims). The Hospital stated that these errors occurred because of inadequate
controls to identify, obtain, and properly report credits from device manufacturers. As a result of
these errors, the Hospital received overpayments of $48,392.

Incorrect Billing for Patient Discharges That Should Have Been Billed as Transfers

Federal regulations state that a discharge of a hospital inpatient is considered to be a transfer
when the patient’s discharge is assigned to one of the qualifying DRGs and the discharge is to
home under a written plan of care for the provision of home health services (42 CFR § 412.4(c)).
A discharge of a hospital inpatient is also considered to be a transfer if the patient is readmitted
the same day to another hospital unless the readmission is unrelated to the initial discharge
(42 CFR § 412.4(b)). A hospital that transfers an inpatient under the above circumstances is paid
a graduated per diem rate for each day of the patient’s stay in that hospital, not to exceed the full
DRG payment that would have been paid if the patient had been discharged to another setting
(42 CFR § 412.4(f)).

For 3 of 149 selected inpatient claims, the Hospital incorrectly billed Medicare for patient
discharges that it should have billed as transfers. For these claims, the Hospital should have
coded the discharge status as a transfer to home under a written plan of care for the provision of
home health services (2 claims) or a transfer to an acute-care hospital (1 claim). However, the
Hospital incorrectly coded the discharge status as “discharged to home”; therefore, the Hospital
should have received the per diem payment instead of the full DRG payment. In some cases, the
Hospital attributed the errors to a lack of comprehensive review of discharge status assignments.
As a result of these errors, the Hospital received overpayments of $45,939.

4
  The PRM states: “Implicit in the intention that actual costs be paid to the extent they are reasonable is the
expectation that the provider seeks to minimize its costs and that its actual costs do not exceed what a prudent and
cost conscious buyer pays for a given item or service. If costs are determined to exceed the level that such buyers
incur, in the absence of clear evidence that the higher costs were unavoidable, the excess costs are not reimbursable
under the program” (part I, § 2102.1). Section 2103 further defines prudent buyer principles and states that
Medicare providers are expected to pursue free replacements or reduced charges under warranties. Section
2103(C)(4) provides the following example: “Provider B purchases cardiac pacemakers or their components for use
in replacing malfunctioning or obsolete equipment, without asking the supplier/manufacturer for full or partial
credits available under the terms of the warranty covering the replaced equipment. The credits or payments that
could have been obtained must be reflected as a reduction of the cost of the equipment.”


Medicare Compliance Review of Sutter Medical Center, Sacramento (A-09-13-02024)                                     5
Incorrect Billing as a Separate Inpatient Stay

The Manual (chapter 3, § 40.2.5) states:

           When a patient is discharged/transferred from an acute care Prospective Payment
           System (PPS) hospital and is readmitted to the same acute care PPS hospital on
           the same day for symptoms related to, or for evaluation and management of the
           prior stay’s medical condition, hospitals shall adjust the original claim generated
           by the original stay by combining the original and subsequent stay onto a single
           claim.

For 1 of 149 selected inpatient claims, the Hospital incorrectly billed Medicare separately for a
related discharge and readmission within the same day. The Hospital stated that human error
was the cause of billing two separate inpatient stays. As a result of this error, the Hospital
received an overpayment of $17,456.

BILLING ERRORS ASSOCIATED WITH OUTPATIENT CLAIMS

The Hospital incorrectly billed Medicare for 19 of 33 selected outpatient claims, which resulted
in overpayments of $51,686.

Manufacturer Credits for Replaced Medical Devices Not Reported

Federal regulations require a reduction in the OPPS payment for the replacement of an implanted
device if (1) the device is replaced without cost to the provider or the beneficiary, (2) the
provider receives full credit for the cost of the replaced device, or (3) the provider receives
partial credit equal to or greater than 50 percent of the cost of the replacement device
(42 CFR § 419.45(a)).

CMS guidance explains how a provider should report no-cost and reduced-cost devices under the
OPPS.5 For services furnished on or after January 1, 2007, CMS requires the provider to report
the modifier -FB and reduced charges on a claim that includes a procedure code for the insertion
of a replacement device if the provider incurs no cost or receives full credit for the replaced
device. If the provider receives a replacement device without cost from the manufacturer, the
provider must report a charge of no more than $1 for the device.

For 2 of 33 selected outpatient claims, the Hospital received full credit for a replaced device but
did not report the -FB modifier and reduced charges on its claim. The Hospital stated that these
errors occurred because of inadequate controls to identify, obtain, and properly report credits
from device manufacturers. As a result of these errors, the Hospital received overpayments of
$28,142.




5
    CMS Transmittal 1103, dated November 3, 2006, and the Manual, chapter 4, section 61.3.


Medicare Compliance Review of Sutter Medical Center, Sacramento (A-09-13-02024)                       6
Incorrect Billing of Number of Units

Medicare payments may not be made to any provider of services or other person without
information necessary to determine the amount due the provider (the Act, § 1833(e)). The
Manual states: “In order to be processed correctly and promptly, a bill must be completed
accurately” (chapter 1, § 80.3.2.2). The Manual also states: “It is … of great importance that
hospitals billing for [drugs] make certain that the reported units of service of the reported
HCPCS code are consistent with the quantity of a drug … that was used in the care of the
patient” (chapter 17, § 90.2.A). If the provider is billing for a drug, according to the Manual,
“[w]here HCPCS is required, units are entered in multiples of the units shown in the HCPCS
narrative description. For example, if the description for the code is 50 mg, and 200 mg are
provided, units are shown as 4.…” (chapter 17, § 70). In addition, the Manual states: “The
definition of service units … is the number of times the service or procedure being reported was
performed” (chapter 4, § 20.4).

For 4 of 33 selected outpatient claims, the Hospital submitted claims to Medicare with the
incorrect number of units for injectable drugs administered (3 claims with dates of service in
CYs 2010 and 2012) or the incorrect number of units of service for a surgical procedure (1 claim
with a date of service in CY 2013). The Hospital stated that the incorrect drug units were the
result of incorrect calculations and the incorrect surgical units were the result of a data entry
error. As a result of these errors, the Hospital received overpayments of $10,443.

Insufficiently Documented Service

Medicare payments may not be made to any provider of services or other person without
information necessary to determine the amount due the provider (the Act, § 1833(e)).

For 1 of 33 selected outpatient claims, the Hospital billed Medicare for a drug that was not
supported by the medical records. The Hospital stated that the drug was administered; however,
the nurse did not properly document administration of the drug. As a result of this error, the
Hospital received an overpayment of $6,805.

Incorrect Billing of Medicare Part B for Outpatient Services Provided During
Inpatient Stays

Medicare Part A covers certain items and nonphysician services provided to inpatients;
consequently, the IPPS rate covers these services (the Manual, chapter 3, § 10.4).

For 11 of 33 selected outpatient claims, the Hospital incorrectly billed Medicare Part B for
outpatient services provided during inpatient stays that should have been included on its inpatient
(Part A) claims to Medicare. The Hospital stated that its controls did not flag these claims in
connection with an inpatient stay because they were for recurring services billed at the end of the
month. As a result of these errors, the Hospital received overpayments of $4,932.




Medicare Compliance Review of Sutter Medical Center, Sacramento (A-09-13-02024)                    7
Incorrect Billing of Noncovered Dental Services

The Act precludes payment under Medicare Part A or Part B for any expense incurred for items
or services related to the care, treatment, filling, removal, or replacement of teeth or structures
directly supporting teeth (§ 1862(a)(12)).

For 1 of 33 selected outpatient claims, the Hospital billed Medicare for dental services that were
not covered under Medicare. The Hospital stated that its billing system edits did not prevent
billing of dental services. As a result of this error, the Hospital received an overpayment of
$1,364.

                                      RECOMMENDATIONS

We recommend that the Hospital:

    •   refund to the Medicare contractor $1,043,958, consisting of $992,272 in overpayments
        for the incorrectly billed inpatient claims and $51,686 in overpayments for the incorrectly
        billed outpatient claims, and

    •   strengthen controls to ensure full compliance with Medicare requirements.

   HOSPITAL COMMENTS AND OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, the Hospital did not concur with two of our findings
(areas in which we obtained medical review of 73 claims), with $768,794 in associated
questioned costs. The Hospital described actions taken or planned for each of the other findings.
The Hospital’s comments are included in their entirety as Appendix C.

HOSPITAL COMMENTS

Regarding our finding on incorrect billing of Medicare Part A for beneficiary stays that should
have been billed as outpatient or outpatient with observation services (an area in which we
obtained medical review of 64 claims), the Hospital had the following comments:

    •   The Hospital stated that it was not given an opportunity to discuss and agree on these
        cases before they were reported as incorrect. The Hospital added that it intended to
        appeal the majority of the cases through the appropriate CMS channels.

    •   The Hospital stated that our third-party medical review contractor conducted the clinical
        review for the majority of the cases and that it was aware the contractor claim denials
        “suffer a 72% turnover rate with the Administrative Law Judges … for inpatient Part A
        claims.”

    •   The Hospital noted that a number of the cases involved canceled surgeries but were
        otherwise appropriate for payment according to CMS billing standards. The Hospital
        referenced an August 2013 OIG report that stated that hospitals were unclear about the


Medicare Compliance Review of Sutter Medical Center, Sacramento (A-09-13-02024)                       8
        Medicare requirements for billing canceled inpatient surgeries and that CMS billing
        requirements were too restrictive. The Hospital stated that it provided appropriate,
        high-quality medical care to beneficiaries.

Regarding our finding on incorrect DRGs (an area in which we obtained medical review of the
nine claims), the Hospital stated that it was not given an opportunity to discuss and agree on
these cases before they were reported as incorrect and added that it intended “to aggressively
appeal these cases which have been unfairly determined by the OIG to be inappropriately billed.”

Regarding the other findings, the Hospital provided information on actions that it had taken or
planned to take, including appropriate reimbursement.

OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing the Hospital’s comments, we maintain that our findings and recommendations
are valid. We used an independent medical review contractor to determine whether 73 inpatient
claims (which included 11 canceled surgeries) met medical necessity requirements. The
contractor examined all of the medical records and documentation submitted and carefully
considered this information to determine whether the Hospital billed the inpatient claims in
compliance with Medicare requirements. On the basis of the contractor’s conclusions, we
determined that the Hospital should have billed the inpatient claims as outpatient or outpatient
with observation services (64 claims) and that the Hospital billed inpatient claims with the
incorrect DRGs (9 claims).

With respect to the Hospital’s comments that it was not given an opportunity to discuss and
agree on these cases before they were reported as incorrect, we gave the Hospital such an
opportunity before sending the claims to the medical review contractor. We informed the
Hospital that it would have an opportunity to respond further to the CMS action official and that
the Hospital maintains its right to appeal the claims. Furthermore, before issuing our draft
report, we provided to the Hospital the contractor results. The Hospital agreed that six of nine
inpatient claims were billed with the incorrect DRGs and indicated that human error caused the
incorrect diagnosis code to be selected, as stated in our report.




Medicare Compliance Review of Sutter Medical Center, Sacramento (A-09-13-02024)                     9
                   APPENDIX A: AUDIT SCOPE AND METHODOLOGY

SCOPE

Our audit covered $2,693,838 in Medicare payments to the Hospital for 182 claims that we
judgmentally selected as potentially at risk for billing errors. These claims consisted of
149 inpatient and 33 outpatient claims. Of the 182 claims, 179 claims had dates of service in
CYs 2010, 2011, or 2012, and 3 claims (in areas with a higher risk of billing errors, i.e., inpatient
short stays and an outpatient surgery billed with units greater than one) had dates of service in
CY 2013.

We focused our review on the risk areas that we had identified as a result of prior OIG reviews at
other hospitals. We evaluated compliance with selected billing requirements and subjected
97 inpatient claims to focused medical review to determine whether the services were medically
necessary.

We limited our review of the Hospital’s internal controls to those applicable to the inpatient and
outpatient areas of review because our objective did not require an understanding of all internal
controls over the submission and processing of claims. We established reasonable assurance of
the authenticity and accuracy of the data obtained from CMS’s National Claims History file, but
we did not assess the completeness of the file.

This report focuses on selected risk areas and does not represent an overall assessment of all
claims submitted by the Hospital for Medicare reimbursement.

We conducted our fieldwork at the Hospital in April and May 2013.

METHODOLOGY

To accomplish our objective, we:

    •   reviewed applicable Federal laws, regulations, and guidance;

    •   extracted the Hospital’s inpatient and outpatient paid claim data from CMS’s National
        Claims History file for CYs 2010 through 2012 and for CY 2013 for 3 claims;

    •   obtained information on known credits for replaced cardiac medical devices from the
        device manufacturers for CYs 2010 through 2012;

    •   used computer matching, data mining, and data analysis techniques to identify claims
        potentially at risk for noncompliance with selected Medicare billing requirements;

    •   judgmentally selected 182 claims (149 inpatient and 33 outpatient claims) for detailed
        review;




Medicare Compliance Review of Sutter Medical Center, Sacramento (A-09-13-02024)                    10
    •   reviewed available data from CMS’s Common Working File for the selected claims to
        determine whether the claims had been canceled or adjusted;

    •   requested that the Hospital conduct its own review of the selected claims to determine
        whether the services were billed correctly;

    •   reviewed the itemized bills and medical record documentation provided by the Hospital
        to support the selected claims;

    •   reviewed the Hospital’s procedures for assigning HCPCS codes and submitting Medicare
        claims;

    •   used an independent medical review contractor to determine whether 97 selected
        inpatient claims met medical necessity requirements;

    •   discussed the incorrectly billed claims with Hospital personnel to determine the
        underlying causes of noncompliance with Medicare requirements;

    •   calculated the correct payments for those claims requiring adjustments; and

    •   discussed the results of our review with Hospital officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




Medicare Compliance Review of Sutter Medical Center, Sacramento (A-09-13-02024)                  11
                       APPENDIX B: RESULTS OF REVIEW BY RISK AREA


                                                                                        Claims
                                                                        Value of         With
                                                         Selected       Selected        Over-            Value of
                    Risk Area                            Claims         Claims         payments        Overpayments
Inpatient

Short Stays                                                 108        $1,062,062           82             $761,915
Manufacturer Credits for Replaced Medical
                                                              27          963,270             8               91,706
Devices
Transfers                                                      4          153,711             4               79,769
Claims Billed With High-Severity-Level
                                                               7          208,800             2               27,842
DRG Codes
Same-Day Discharges and Readmissions                           2            31,852            1               17,456

Claims Billed for Kyphoplasty Services                         1            13,584            1               13,584

  Inpatient Totals                                          149        $2,433,279           98             $992,272



Outpatient
Manufacturer Credits for Replaced Medical
                                                              7          $165,140            2             $28,142
Devices
Claims for Injectable Drugs                                   7             32,784           3                7,285

Surgeries Billed With Units Greater Than One                  2             29,308           1                5,957
Claims Billed Within the DRG Payment
                                                             14             19,933          11                4,932
Window
Claims Billed for Doxorubicin Hydrochloride                   2             12,030           1                4,006

Dental Services                                               1              1,364           1                1,364

  Outpatient Totals                                          33          $260,559           19             $51,686



  Inpatient and Outpatient Totals                           182        $2,693,838          117           $1,043,958

   Notice: The table above illustrates the results of our review by risk area. In it, we have organized inpatient and
   outpatient claims by the risk areas we reviewed. However, we have organized this report’s findings by the types of
   billing errors we found at the Hospital. Because we have organized the information differently, the information in
   the individual risk areas in this table does not match precisely this report’s findings.



   Medicare Compliance Review of Sutter Medical Center, Sacramento (A-09-13-02024)                                  12
                              APPENDIX C: HOSPITAL COI\.1MENT S 




~ ~~~~e~~~n:k. -ter. Sac ~fn€1'
       WePiusYa<.




                                                   February 18, 2014

       FROM: 	Carrie   Owen-Plietz
                Chief Executive Offi«!r
                Sutter Medical Center, Sacramento
                2800 l Street
                Sacramento, CA 95816

       To: 	    Lori A Ahlstrand
                Regional Inspector General for Audit Services
                Office of Audit Services, Region [X
                90 - 7"' Street. Suite 3-650 

                San Francisco, CA 94103 




       R E: 	   M EDICARE COMPLIA.-,;CE REVIEW OF SUTTER MEDICAL CENTER S ACRAMENTO




       Ms. Ahlstrand:


       This communication is in response to your letter dated January 28, 2014 pertaining to the
       Medialre Cmnpliana? Revie-dl of Sutter Medictll Center, Sacramento (A -09-13-02024] draft report. In
       that letter, you asked us to consider the facts and reasonableness of the report and provide
       written comments including a statement of concurrence or nonconcurrence along "ith a
       statement describing the nature of the corrective action taken or planned for each
        recommendation.

       There are several pertinent areas that we are not in concurrence which represent a s ignificant
        portion of the reimbursement impact.

       The following is a description of our nonconcurrence with respect to the OIG's finding. We
       have included a description of actions taken or planned, corrective or otherwise, for each of the
       identified risk areas as ap propriate.



Medccve Complimce Review cf Stdter Medical Center, .£:!cramenio Vi- (l}. J3- 0202 {)                    13
    MEDJCARECO~!rllAI\'('B REViEW OFSUITERMEDICALCENTER.. SACRAMI!NTO ( A.(J9· 13..Q2024)

    PAGE20P5




    BILUNG ERRORS A SSOCIATED WITH INPATIENT STAYS


    INCORRECT BILLING OF MEDICARE PART A fOR BENEFICIARY STAYS THAT SHOULD HAYS BEEN
    BILLED AS O UTPATIENT O R 0 t.1J1'ATIENT· WI"l1 i·0BSERVATION SERVICES


    Based on the OJG's pr ocess and timing, Sutter Medical Center Sacramento was not given an
    opportunity to discuss and agree upon these cases before they were decla red and reported as
    incorrect in the opinion of the Office of Audit Services of the OIG. We have reviewed the cla ims
    in question and intend to appeal the majority of these cases through the appropriate CMS
    channels.

    We note that, per. the O IG' s footnote on page 4 of the report, the re port claims the entire va lue of
    the inpatient claim as being paid in error when, in fact, we ha ve t he o ption of billing Part B
    services where applicable. A~ such, the overpayment amount in the OJG' s report is an
    overstatement of paid amounts in question.

    We are aware that Maximus Federal Services, the OIG's third·party medical review company,
    cond ucted the clinical review for the majority of the cases in question. We are also aware that
    Maximus Federal Servioes denials suffer a 72% tu rnover rate with the Admin istrative Law
    j udges (AL)s) for inpatient Part A claims' . The majority of the cases identified as being
    incorrectly billed were assessed w1der our professional utilization review company, Executive
    Health Resources (EHR). EHR has >90% success rate when appealing Su tter Medical Center
    Sacramentds inpatient admission claim denials through the AL) level of appeal.

    We note a number of cases revolved around surgeries which had been cancelled, but which
    were otherwise appropriate for payment according to CMS billing standards. The O!G recently
    identified reasons for errors in billing cancelled s urgica l procures• The firs t and second reasons
    for s uch e rrors, according to the OIG. were: {1) the hnspilals were unclear about the Medicare
    requirements for billing canceled inpatient surgeries; (2) the Centers for Medicare & Medicaid
    Services (CMS) billing requiremeJJts are too restrictive, particularly with regard to changing a
    beneficiary's status from inpatient to outpatient after dischar ge. Director Tavenner concurred
    with the recommendation that " ClvtS strengthen guidance to better explain the Medkare rule

    'Pub OEI-02-!0-00340. lmproveme.nts Are Needed al the Administrative Law judge Level of Medicare Appeals, 

    November ~0!2.      

        Medicnn~ Co uld Save t-.1i1lions By Stnmgthening Bill ing Requinm1enl:s For Canceled Elective Surge1·ies, O!G HHS, 

    2

    August 2013, A-01-12-00:09




Medicare Compliance Review of ~ffer Medical Certer, Sacramer>to (,4- 09-13- 02024)                                             14
 MF1l!CAREC0.1.1PUANCERBVIBWOFStmER M eDICAL CENTER, SACRAM I;Nf() { A-09-13.()202<1]
 PACE30F5




 that a clinical condition requir ing inpatient care must exis t for hospitals to bill for Part A
 prospecti ve payments for elective surgeries that were canceled ..."> ln essence, t he OIG is
 attempting to impose penalties on Sutter Medical Center Sacramento for failu re to follow weak,
 unclear, excessively restrictive guidance. In these cases, Sutter Med ical Center Sacramento
 rendered appropriate, high-quality medical care to beneficiaries. The Med icare Administrative
 Contractor {MAC) paid the clai ms without question. It is unreasonable to attempt to enforce
 ambiguous guidance especially when such guidance was unenforced by the MAC.

 lNCO!UlECf DIACNOSIS·Rili.ATED GROUPS


 Based on the O!G's process and timing, Sutter :Medical Center Sacramento was not given an
 opportunity to discuss and agree upon these cases before they were declared and re ported as
 incorrect in the opinion of the Office of Audit Services of the OIG. Therefore, it is our inte ntion
 to aggressively appeal these cases which have been unfairl y deter mined by the OIC to be
 inappropriately billed.

 MANUFACT'-'RER CRED!TS FOR REPLACED !'vfEDICAL DEVICES NOT OBTAINED OR REPORTED


 We have reviewed the 7 claims in question and have made the appropriate reimbueseme!lt
 corrections. Medical devices are now being reviewed through a multi-disciplinary channel to
 ensure that replaced devices are sent to the appropriate manufactme r and that credits arc
 confirmed, received and credited to the appropria te patient account.

 INCORRECT B ILLING FOR PATIENT DISCHARGES THAT SHOULD HAVE BEEN Bltl.ED AS
 TRANSFERS


 We have reviewed the 3 cases in question and have made the appro priate reimb ursement.
 Audi ts were conducted in 2013 and will continue into 2014 to evaluate the accuracy of discharge
 disposition assigrunent to ensure that daims are paid appropriately.




 ~ !\•ledi~re Could Sav~ MHiions By Sll'ellgthcning BiJJi.ng Requirements J<or C~J\-.;eled EJ.caive Sutgeries, OIG HHS,
 August 2013, A·O"l-12.()()509, Appendix 0




Medicare Compliance Review of ~ffer Medical Certer, Sacramento Vi· 09-13- 02024)                                          15
   lvi E.DICA.RECoMPU ANC£ R EVIEW OF SUITER MEDICAL CENfEiot.,. SAC'AAMSNTO (A~09~13-02024)
   PAGHOFS




    I NCORRECT BilLIN G AS A SEPARATE INPATIBN'fSTAY


   The single error in this categor)' was a result of human error in determining whether the stays
   should be bille d separately or toge ther based on the patient's underlying condition. Patient
   discharges and adm issions that occur on the same day are evaluated by the billing department
   to ensure that accoun ts are combined when they occttr on the same day or withjn the time
   period required by Medicare g uidelines.

    BilLING ERRORS AsSOCIATED WITH OUTPATIENT STAYS


    MANOFACTURER CREOlTS fOR R EPLACED MEDICAl. DEVICES NOT REPORTED


   We have reviewed the 2 claims in ques tion and have made the appropriate reimbursement
   corrections. Medical device s are now being reviewed t hrough a multi-discipliJ, ary channel to
   ensure that replaced devices are sent to the appropriate manufacturer and that credits are
   confirmed, rece ived and credited to the appropriate patient account.

    INCORREC.'T BILLI NG Of NUMBER OF UNITS


   In 2013, we implemented a self-monitoring process to evaluate the administration of infus ion
   drugs to assess appropria te billing and charging procedures. We will a lso be evaluating uruts
   of service for infusior• therapy as part of a compre hensive medica l reco rd review audit in 2014.

    INSUFFJCIENTJ.Y DOCUMENTE D SERVICB


   We have re viewed the claim in question and have made the appropriate reimbursement
   corrections. TI1e error appears to be an isolated documentation deficiency without patient
   impact.

    INCORRECT BilliNG OF MEDICARE PART B FOR OUTPATIENT SERVICES PROVIDED DURING
    INPATIENT STAYS


   We have reviewed the 1l claims in question and have mad e the appropria te reimbursement
   corrections. System reports are being generated to identify potential overlap claims between




Medicare Compliance Review of ~ffer Medical Certer, Sacramento (,4- 09.13- 02024)                        16
   M£J)!CARE CO\Il'UAI<Cl! R MEW Of SI.TmR MID(CALC£.'-"rol, SACRA.\IL\'TO [A.()9-13.Q2024)
  PACE50f5




  inpatient and outpatient services to ensure that outpatient services are incorporated into the
  inpatient payment.

  INCORRECT BtU.INC Or NON·COVH!£0 DENTAL SERVICES


  We have reviewed the claim in question and have made the appropriate reimbursement
  corrections. System ed its have been established to stop outpatient dental services before being
  billed to the Medicare program to ensure appropria te reimbw·sement (or these services.




  II you have further questions pertaining to the responses in this letter or the outcome of the
  review, please feel free to contact jim Passey, Director, Compliance Auditing l!c Monitoring.
  Sutter Health, at 916.614.2543 or via e-mail at           P,>NWv lt•wtt~rhealth.nrg.        You may also contact
  me directly at 916.733.8999 or via e-mail at OwcnCN••suttRrhealth.org. Thank you.

  Sincerely,




  Ca rrie Owen-Piier.t., MHI\ FACHE
  Chief Executive Officer
  Sutter Medical Center, Sacramento



  cc: 	    James Conforti, Regional President, Sacramento-Sierra Region
           Jeff Sprague, Senior Vice President, Financial Operations, Sutter Health
           Brian Hunter, VIce President, Shared Services, Revenue Cycle, Sutter Health
           Ginger Chappel~ Vice President Chief Compliance Officer, Sutter Health
           Barbara Marrinson, Regional Compliance Officer, Sacramento-Sierra Region
           Tory Starr, Care Coordination Executive, Sacramento-Sierra Region




Medicare Complimce Revie w of ~tter Medical Center, Sacram<nto (,'!- 09-13- 02024)                                   17
